September 2007
Report No. AUD-07-012


FDIC’s Participation in the Shared
National Credit Program




            AUDIT REPORT
                                                                                             Report No. AUD-07-012
                                                                                                    September 2007


                                                    FDIC’s Participation in the Shared National Credit
                                                    Program
                                                    Results of Audit
Background and Purpose of
Audit                                               The SNC Program is a well-established interagency program with
                                                    appropriate interagency coordination and documentation. The
A Shared National Credit (SNC) is defined as        FDIC has a role similar to that of the other banking agencies in
any loan and/or formal loan commitment              providing a periodic credit risk assessment of the largest and most
extended to a borrower by a supervised              complex credits held by insured financial institutions in the
institution (subject to supervision by one of the   United States.
federal banking agencies (FBA)), its
subsidiaries, and affiliates that totals $20
million or more and (1) is shared by three or       The FDIC uses information from the SNC Program in risk
more insured institutions under a formal            management examinations and analyses of emerging risks at
lending agreement or (2) a portion of which is      large banks, including underwriting and industry performance
sold to two or more insured institutions, with      trends. There were a total of nine sites for the 2007 SNC review
the purchasing institutions assuming a pro rata
share of the credit risk. An agent originates a
                                                    where the FDIC examiners served as the Examiner-in-Charge.
SNC and administers it for the other lenders.       We reviewed three such SNC examination sites and determined
                                                    that the FDIC examiners had appropriately followed guidance
The SNC Program is an interagency program,          and that credit ratings were adequately supported by examiner
established in 1977, to provide a periodic
credit risk assessment of the largest and most      working papers. According to DSC examiners, SNC results help
complex credits held or agented by supervised       achieve efficiencies in risk management examinations by using
institutions. The SNC Program is                    the SNC rating assigned to credits, thus avoiding multiple
administered by the four FBAs: the Office of        reviews of the same credits as part of individual risk management
the Comptroller of the Currency (OCC), Board        examinations of participating institutions.
of Governors of the Federal Reserve System
(FRB), FDIC, and Office of Thrift Supervision
(OTS). The SNC Program is designed to               We identified a matter for further consideration by FDIC
provide uniformity and efficiency in the            management involving the process used to identify SNCs that are
FBAs’ analysis and rating of the largest and        agented by entities that are not supervised institutions (such as
most complex credit facilities in the country.      insurance companies and securities firms) meaning that the
The FDIC’s Division of Supervision and
Consumer Protection (DSC) is responsible for        institution is not subject to examination by one of the FBAs. The
fulfilling the FDIC’s role in the SNC Program.      interagency letter sent to all known agent financial institutions
                                                    each December asks these institutions to report SNCs that are
For 2007, the SNC Program included 205              agented by an entity that is not a supervised institution.
agent institutions, of which 26 were FDIC-          However, this process is unlikely to identify those SNCs in which
supervised institutions, that originated about
7,700 credits with a $2.3 trillion commitment       the agent entities are not supervised institutions. Given the
balance. About 800 of the more than 5,200           benefits of the SNC Program in terms of insight into industry risk
FDIC-supervised banks participate in SNCs.          and performance and efficiencies gained in the examination
For these 800 institutions, the SNC Program         process, the FDIC, together with the other FBAs, should consider
has the potential beneficial effects of avoiding    assessing the need for additional guidance and controls over the
duplicate credit reviews and ensuring
consistency in rating determinations.               identification of SNCs agented by entities that are not supervised
                                                    institutions.
The audit objectives were to assess the
(1) FDIC’s role in reviewing SNCs and               Recommendations and Management Response
(2) consideration of SNC ratings in risk
management examinations of FDIC-
supervised institutions.                            The report does not contain any recommendations. The FDIC
_______________________                             commented that it would discuss the need for additional guidance
To view the full report, go to                      and controls over the identification of SNCs agented by entities
www.fdicig.gov/2007reports.asp                      that are not supervised institutions with the other FBAs.
                          TABLE OF CONTENTS


BACKGROUND                                                      2

RESULTS OF AUDIT                                                5

THE FDIC’S ROLE IN THE SNC PROGRAM                             5
  SNC Program Examinations                                     6
  Use of SNC Information in Risk Management Examinations       7

MATTER FOR MANAGEMENT CONSIDERATION                            8

CORPORATION COMMENTS                                           9

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY                 10

APPENDIX II: CORPORATION COMMENTS                              12

TABLES

Table 1: Total SNCs and Sampled Credits                         4
Table 2: Number of Examiners and Examiner Hours Dedicated to    7
         the SNC Program
Table 3: Supervised Institutions in the SNC Program             8

FIGURE

SNC Commitments and Outstanding Balances from 2000 to 2007      3
Federal Deposit Insurance Corporation                                                                  Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                   Office of Inspector General


DATE:                                     September 13, 2007

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits


SUBJECT:                                  FDIC’s Participation in the
                                          Shared National Credit Program
                                          (Report No. AUD-07-012)


This report presents the results of our audit of the FDIC’s participation in the Shared
National Credit (SNC) 1 Program. The SNC Program is an interagency program
established in 1977 to provide a periodic credit risk assessment of the largest and most
complex credits held or agented 2 by supervised institutions. 3 For 2007, the SNC
Program covered almost 7,700 credits (or loans) totaling nearly $2.3 trillion in
commitments with over $800 billion in outstanding balances. 4

The objectives of the audit were to assess (1) the FDIC’s role in reviewing SNCs and
(2) the consideration of SNC ratings in risk management examinations of FDIC-
supervised institutions. As part of the objectives, we also reviewed the programmatic
goals and objectives of the SNC Program. We conducted this performance audit in
accordance with generally accepted government auditing standards. Appendix I of this
report discusses our audit objectives, scope, and methodology in detail.

The FDIC’s Division of Supervision and Consumer Protection (DSC) operates a number
of supervisory and risk assessment programs to evaluate large bank risks. DSC’s Large

1
  A SNC is defined as any loan and/or formal loan commitment extended to a borrower by a supervised
institution, its subsidiaries, and affiliates that totals $20 million or more and (1) is shared by three or more
insured institutions under a formal lending agreement or (2) a portion of which is sold to two or more
insured institutions, with the purchasing institutions assuming a pro rata share of the credit risk.
2
  According to FDIC guidance, one or more lenders take on the role of lead or “agent” (co-agents in the
case of more than one) of the credit and assume responsibility of administering the loan for the other
lenders. The agent assumes the lead role in originating a SNC and may retain varying percentages of the
credit.
3
  A supervised institution is one that is subject to supervision by one of the federal bank regulatory
agencies, including all FDIC-insured banks, their branches, subsidiaries, and affiliates; bank or financial
holding companies and their non-bank subsidiaries and affiliates; and federal and state-licensed branches
and agencies of foreign banks. SNCs may be agented by an entity that is not a supervised institution.
4
  A commitment is an agreement between a lender and a borrower to lend money at a future date, while
outstanding balance refers to amounts currently outstanding or drawn against the commitment.
Bank Supervision Branch is responsible for establishing minimum standards and
supervisory strategies necessary to ensure a consistent approach to large bank supervision
on a national basis.


BACKGROUND

The SNC Program is administered by the four federal banking agencies: the Office of the
Comptroller of the Currency (OCC), Board of Governors of the Federal Reserve System
(FRB), FDIC, and Office of Thrift Supervision (OTS). Cooperating state bank
supervisors also participate in annual examinations. The SNC Program is designed to
provide uniformity and efficiency in the federal banking agencies’ analysis and rating of
the largest and most complex credits in the country. A March 1998 Interagency
Agreement entitled, Shared National Credit Program (Interagency Agreement), provides
policies for the SNC Program and the definitions used by program participants. In
addition, the FDIC, OCC, and FRB have developed SNC procedures manuals to help
assist examiners performing SNC reviews. With the exception of administrative details,
the procedures manuals are similar.

According to the DSC’s 2007 Shared National Credit Program Procedures Manual, the
key objectives of the SNC Program are to:

    •   Provide uniformity in approach and risk-rating determinations.
    •   Gain efficiencies in risk analysis.
    •   Provide timely results to banks and regulatory agencies.
    •   Gather and analyze bank and industry credit data.

Other benefits of the program include the following:

    •   Avoiding redundant reviews of the same credit in multiple banks.
    •   Ensuring that credits are reviewed in a uniform and consistent manner.
    •   Maximizing human and financial resources.
    •   Limiting disruptions to the operations of the participating banks.

After a period of decline from 2002 through 2004, SNC commitments have been
increasing since 2005 and reached an all-time high of approximately $2.3 trillion in
2007 5 (see the figure on the next page).




5
  For 2006, the most current data available, the portion of SNC commitments held by FDIC-insured
institutions and banking organizations was approximately 47 percent.

                                                   2
       SNC Commitments and Outstanding Balances from 2000 to 2007

                                SNC Volumes per Year
               $ Billions
                  2,500
                  2,000
                  1,500
                  1,000
                    500
                      0
                           2000 2001 2002 2003 2004 2005 2006 2007
                          Total SNC Commitments       Total SNCs Outstanding


       Source: DSC’s SNC Summary Reports.



On September 25, 2006, the FRB, OCC, FDIC, and OTS issued the results of their joint
review of SNCs. The review showed that the volume of syndicated credits rose rapidly,
in part, reflecting a rise in merger and acquisition activity over 2005. The review also
noted a small increase in problem credits as a share of commitments in 2006. The bulk of
this increase was associated with credits held by non-bank entities, while problem loans
at regulated institutions, particularly those with insured deposits, grew slightly.
Deterioration in exposures to the manufacturing sector, primarily the automotive
industry, accounted for most of the softening in asset quality. The published review
results affirmed that most other industries exhibited improved credit quality from peak
problem levels experienced in prior years. As shown in the figure above, in 2007 SNC
commitments increased nearly $490 billion, nearly a 26-percent increase since 2006.

SNC Review Process

In December of each year, the federal banking agencies notify known agent banks of the
upcoming SNC review. Such banks are directed to provide year-end SNC information to
their respective banking agencies by January 31. During February and March, the
banking agencies exchange preliminary SNC data and develop a sample of SNCs that
will be reviewed at selected agent banks. The banking agencies have adopted a sampling
methodology that includes both judgmental and statistical sampling processes that focus
on riskier types of borrowers and industries. The primary factors used to determine the
riskier borrowers are previous SNC risk ratings, bank risk ratings, rating agency ratings,
credit size, the borrower’s primary industry, and general economic trends. As part of the
SNC process, the banking agencies prepare high-risk industry reports each year to assist
in the review and selection of targeted industries. For example, the 2007 SNC review
targeted the automotive, residential real estate construction, and broadcasting industries.
For the 2007 review, the federal banking agencies reported 205 agent institutions that
originated the universe of about 7,700 credits. Generally, the federal banking agency
with supervisory responsibility for an agent institution assumes overall administrative


                                                  3
responsibility for the SNC review, including acting as the examiner-in-charge (EIC). For
2007, SNC reviews were performed at 71 agent banks of which 9 institutions are FDIC
supervised. At the 71 agent banks, examiners sampled about 2,100 credits (27 percent)
of the 7,695 SNCs (see Table 1).

Table 1: Total SNCs and Sampled Credits
  Banking         Total           Dollar Amount         Number of          Dollar Amount of
  Agency*       Number of           of Credits           Sampled           Sampled Credits
                 Credits          ($ in millions)         Credits           ($ in millions)
  OCC             5,509             $1,866,930             1,279                $545,686
  FRB             1,962                $391,750             689                 $176,893
  FDIC             179                  $13,262             113                   $8,213
  OTS               45                   $4,694              17                   $1,452
  Totals          7,695             $2,276,636             2,098                $732,244
Source: DSC’s Large Bank Supervision Branch.
* The banking agencies track the number of SNCs and dollar amounts by the banking supervisor of the
agent banks. This does not necessarily reflect the overall impact of SNCs on each banking supervisor
because, in many cases, the participants in a SNC include banks that are supervised by other banking
agencies. While FDIC-supervised institutions tend not to agent SNCs, approximately 800 of the more
than 5,200 FDIC-supervised institutions, with total commitments of $91 billion, are participants in the
SNC Program.


For sampled credits, a risk rating is assigned during the SNC review by an interagency
team and reported to each participant bank by its federal banking supervisor. According
to FDIC officials, any credit that was sampled in the SNC Program is not reviewed
during risk management examinations at the participant banks unless significant changes
have occurred that warrant a change to the credit rating. In this manner, the banking
agency can achieve considerable efficiency through the SNC Program.

The federal banking agencies can use the results of the SNC reviews to identify trends in
industry sectors and banks’ credit risk management practices. As discussed previously,
these trends are typically published annually in September to aid the industry in
understanding economic and credit risk management trends. DSC’s Large Bank
Supervision Branch uses information from the SNC Program in analyses of emerging
risks at large banks.

SNC Modernization Project

During 2002, the agencies initiated a SNC Modernization project, the goal of which was
to enhance and streamline the SNC Program by standardizing the SNC data collection
system and the creation of a shared SNC database that would improve the efficiency and
accuracy of data. The FRB and the OCC maintain separate SNC databases with
collection processes that slightly differ (the OCC also processes SNC data for the FDIC




                                                    4
and OTS). The agencies will augment data collection after the Basel II capital standard 6
becomes effective. Collection of the Basel II data elements will give the agencies
additional insight into implementation of the capital standard by allowing comparison on
commonly-held SNCs. The bank officials we interviewed generally agreed that SNC
modernization could be helpful in streamlining the SNC process, which is viewed as
largely manual and labor intensive.


RESULTS OF AUDIT

The SNC Program is a well-established interagency program with appropriate
interagency coordination and documentation. The FDIC has a role similar to that of the
other banking agencies in providing a periodic credit risk assessment of the largest and
most complex credit facilities held by insured financial institutions in the United States.
The FDIC uses information from the SNC Program in risk management examinations and
analyses of emerging risks at large banks, including underwriting and industry
performance trends. Our review at three SNC examination sites for which FDIC
examiners served as the EIC (there were a total of nine such sites for the 2007 SNC
review) showed that examiners had appropriately followed guidance and that credit
ratings were adequately documented in examiner working papers. According to DSC
examiners, SNC results help achieve efficiencies in risk management examinations by
using the SNC rating assigned to credits, thus avoiding duplicate credit reviews (see The
FDIC’s Role in the SNC Program).

We identified a matter for further consideration by FDIC management involving the
process used to identify SNCs that are agented by entities that are not supervised
institutions, meaning that the institution is not subject to examination by the federal
banking agency. The interagency letter sent to all known agent financial institutions each
December asks the institutions to report SNCs that are agented by an entity that is not a
supervised institution. However, this process is unlikely to identify those SNCs in which
the agent entities are not supervised institutions. Given the benefits of the SNC Program
in terms of insight into industry risk and performance and efficiencies gained in the
examination process, the FDIC, together with the other federal banking agencies, should
consider assessing the need for additional guidance and controls over the identification of
SNCs agented by entities that are not supervised institutions (see Matter for
Management Consideration).


THE FDIC’S ROLE IN THE SNC PROGRAM

The FDIC’s role in the SNC Program is similar to that of the OCC and FRB with its
primary focus being to provide a periodic credit risk assessment of the largest and most

6
 The objective of Basel II, International Convergence of Capital Measurement and Capital Standards:
A Revised Framework, is to more closely align regulatory capital with risk in large or multinational banks.
U.S. regulators expect that about 11 banking organizations, which account for about 50 percent of U.S.
banking assets, will be required to implement Basel II.

                                                     5
complex credit facilities held by insured financial institutions. The FDIC coordinates
with the other banking agencies in developing a universe of SNCs and then targeting a
sample for review. Our review at three FDIC examination sites showed that examiners
had followed guidance and adequately supported their SNC reviews. Further, according
to DSC officials, the SNC results are considered in risk management examinations by
using the SNC rating assigned to a particular credit, thereby, avoiding duplicate credit
reviews.

SNC Program Examinations

The March 1998 Interagency Agreement outlines the policies and procedures for the SNC
Program. The Interagency Agreement addresses, among other things: program
administration, disposition and notification to banks, data processing, and an appeal
process if banks disagree with the review. Further, the agreement provides that the OCC
and FRB are to maintain separate SNC databases – OCC for national banks and the FRB
for state-chartered banks. The Interagency Agreement was amended in 2000 to allow for
the OCC to maintain the database for FDIC-supervised institutions. In addition, the
Interagency Agreement notes that each agency will maintain its own SNC procedures
manual that provides details on procedures for preparing, editing, and processing SNC
data. We reviewed the various manuals and found that with the exception of
administrative matters, the procedures manuals for the three agencies are similar.

We visited three out of nine SNC sites where the FDIC was the EIC. These 3 sites
represented 37 borrowers (42 percent) out of a total of 88 borrowers at the 9 FDIC sites.
Based on our review of examiner working papers and line sheets at the three SNC sites,
we determined that the examiners’ reviews had been completed in accordance with SNC
guidance. Sufficient documentation was available in working paper files for us to
determine which steps the examiners had performed and which bank records had been
reviewed, including examiners’ analyses of debt service coverage/cash flow, collateral,
guarantors, appraisals, and other financial information and analyses. In our opinion, the
examiner working papers and line sheets contained sufficient documentation to support
the credit rating.

The FDIC provides considerable staffing to the SNC Program. FDIC examiners who
participate in the SNC Program must possess the:

   •   ability for and experience in reviewing multi-million dollar loan relationships;

   •   ability to communicate effectively with bank personnel and staff of other
       regulatory agencies; and

   •   ability to evaluate complex segments of a multi-billion dollar banking company,
       assess the level of risk within the company, and relay findings both in written and
       oral form to regional office personnel.

According to DSC, the FDIC and FRB each provide about 25 percent of the total staffing
for SNC reviews, with the OCC providing about 50 percent. FDIC staffing has fluctuated

                                            6
in recent years. As shown in Table 2, FDIC staffing commitments to the SNC Program
ranged from 102 to 202 examiners from 2002 through 2007. SNC assignments for FDIC
examiners generally last from a few days up to 6 weeks.

Table 2: Number of FDIC Examiners and Examiner Hours Dedicated to the
         SNC Program
     Year      Total Number of Examiners         Aggregate Examiner Hours
     2007                122                               15,411
     2006                102                               12,946
     2005                133                               19,263
     2004                170                               24,886
     2003                176                               29,128
     2002                202                               32,830
Source: DSC’s national SNC coordinator.



As noted earlier, SNC volume has been increasing since 2005, yet examiner hours have
generally been decreasing. DSC officials told us that contributing factors to the decrease
in hours have been improved credit quality and efficiencies gained through better
sampling techniques.

Use of SNC Information in Risk Management Examinations

Two of the stated purposes of the SNC Program are to (1) avoid redundancy in reviewing
the same credit in multiple banks and (2) ensure that credits are reviewed in a uniform
and consistent manner. For example, if a loan is made to a borrower with eight
participants, that loan (or credit) could be reviewed in risk management examinations at
all eight banks. By reviewing the credit once as part of the SNC Program, the individual
loans would not need to be reviewed during risk management examinations. The credit
quality rating assigned by the examiners is reported to all banks that participate in the
credit. These ratings are used during subsequent examinations of supervised institutions
to avoid duplicate reviews and to ensure consistent treatment of credits.

To assess the impact of SNCs on FDIC risk management examinations, we obtained a
copy of the national SNC database for 2007. From the database, we determined there
were 205 agent institutions—of which 26 were FDIC-supervised institutions—in the
SNC Program that originated the 7,700 credits with a $2.3 trillion commitment balance.
About 800 of the more than 5,200 FDIC-supervised banks participate in SNCs. For these
800 institutions, the SNC Program has the potential beneficial effects of avoiding
duplicate credit reviews and ensuring consistency in rating determinations.

Table 3, on the next page, summarizes the number of supervised institutions participating
in SNCs, by banking agency.




                                            7
Table 3: Supervised Institutions in the SNC Program
     Banking Agency                      Number of Institutions
           FDIC                                    803
           FRB                                     702
           OCC                                     479
           OTS                                      97
           Total                                 2,081*
* The 2,081 represents supervised institutions. Some supervised institutions such as foreign banking
organizations do not have FDIC insurance.

According to FDIC officials, the annual risk management examination specifically
excludes any credits that have been sampled as part of the SNC Program. The SNC
review was particularly useful in assessing banks’ loan classification systems during the
risk management examination and helped to reduce the size of the loan sample during the
annual risk management examination.

The FDIC, as the insurer of financial institutions, uses information from the SNC
Program to assess overall risk to the industry and to integrate this information into
analyses of emerging risks at large banks. Further, the SNC Program provides the FDIC
insight into underwriting trends.


MATTER FOR MANAGEMENT CONSIDERATION

While assessing the FDIC’s implementation of the SNC Program, we noted an issue that
may warrant further attention by the federal banking agencies. This issue involves the
process used to identify SNCs that are agented by entities that are not supervised
institutions. 7

A SNC is defined as any loan and/or formal loan commitment extended to a borrower by
a supervised institution, its subsidiaries, and affiliates. SNCs may include credits agented
by either financial institutions that are supervised by the federal banking agencies or
entities that are not supervised institutions. The interagency letter and enclosures sent to
all known agent financial institutions each December (the letter for the 2007 review was
distributed on December 14, 2006) provide, in part, that:

         SNCs that are agented by an entity that is not a supervised institution should be
         reported by the supervised institution at which the credit was reviewed in 2006.
         If you are unsure of the review bank, the identity of the non-supervised agent, or
         if the credit was not reviewed in 2006, report the credit.

However, the requested responses to the letter may not fully capture information on
SNCs that are agented by an entity that is not a supervised institution because the letter is
sent to only the 205 supervised agent institutions. Therefore, this process is unlikely to
identify those SNCs that are agented by entities that are not supervised institutions.
7
  Entities that are not supervised institutions may include insurance companies, investment banks, securities
firms, finance companies, real estate development subsidiaries, and foreign banks.

                                                      8
Additionally, current FDIC risk management examination guidance does not include
procedures to identify SNCs that are not included in the SNC Program, including SNCs
that are agented by an entity that is not a supervised institution. Instead, reporting
guidance in the FDIC 2007 SNC manual applies when examiners discover that an FDIC-
supervised institution that agents SNCs has not reported them to FDIC Headquarters. As
a result, neither the responses to the interagency letter nor FDIC risk management
examinations can be fully relied upon to identify SNCs agented by entities that are not
supervised institutions.

DSC officials indicated that if a SNC is agented by an entity that is not a supervised
institution, then the supervised financial institution participating in the SNC with the
largest percentage of the credit should assume reporting duties. However, we did not find
that this potential responsibility has been communicated to financial institutions or is
subject to review as part of risk management examinations. Additionally, performing this
function could represent a burden to the financial institution in terms of the
administrative cost of tracking participation information and accommodating SNC
examinations of the credit that would need to be considered in the assignment of this
responsibility.

According to DSC and Division of Insurance and Research (DIR) officials, the number
and dollar magnitude of SNCs agented by entities that are not supervised institutions is
unknown, and there is no clear indication of the relative risk of these credits compared to
those agented by supervised institutions. Therefore, the benefits of additional controls to
ensure these credits are included in the SNC Program are uncertain. As a result, we are
not including a specific recommendation to address this matter. However, given the
benefits of the SNC Program in terms of insight into industry risk and performance and
efficiencies gained in the examination process, the FDIC, together with the other federal
banking agencies, should consider assessing the need for additional guidance and controls
over the identification of SNCs agented by entities that are not supervised institutions.


CORPORATION COMMENTS

In a memorandum dated September 6, 2007, the Director, DSC, provided a written
response to a draft of this report. DSC’s response is presented in its entirety as
Appendix II. DSC noted that the SNC Program is an important part of its large bank
supervisory and risk assessment program. The response also noted that DSC will discuss
the need for additional guidance and controls over the identification of SNCs agented by
entities that are not supervised institutions with the other banking agencies.




                                            9
                                                                           APPENDIX I


                  OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The audit objectives were to assess (1) the FDIC’s role in reviewing SNCs and (2) the
consideration of SNC ratings in risk management examinations of FDIC-supervised
institutions.

Scope and Methodology

We focused our review on the completed 2006 SNC reviews and the ongoing 2007 SNC
reviews. We conducted this performance audit from March through July 2007 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We reviewed the background and current status of the SNC Modernization project;
however, we did not perform specific audit work related to SNC Modernization. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To accomplish our objectives, we performed the following:

   •   Reviewed DSC policies and procedures manuals related to SNCs and made a
       comparison of the guidance to other regulators’ guidance.
   •   Reviewed existing Interagency Agreements and memoranda related to SNCs.
   •   Interviewed various examiners at three SNC sites.
   •   Interviewed bank officials at three SNC sites.
   •   Reviewed and queried the SNC database maintained by the FRB.
   •   Assessed examiner staffing dedicated to SNCs.
   •   Reviewed SNC identification and sampling methodologies.
   •   Interviewed DSC officials in the Large Bank Supervision Branch.
   •   Reviewed DSC’s Web site for documents relating to SNCs.
   •   Reviewed selected SNC assessments at three FDIC-supervised institutions to
   determine how SNC results are factored into the FDIC’s risk management
   examinations.

Internal Controls Reliance on Computer-based Data

We reviewed the effectiveness of controls in place for identifying the universe of SNCs
and sampling SNCs for individual review. Further, we observed loan reviews and
reviewed examiner line sheets and workpapers to assess whether internal controls were
adequate pertaining to examiner review of individual loans. In our opinion, the internal
controls in place are reasonable for assessing loans in the SNC Program.

The OCC and FRB share responsibility for SNC data collection. OCC and FRB
responsibilities were outside the purview of this review, and accordingly, we cannot
opine of the accuracy of the data maintained by those agencies. Additionally, our audit

                                            10
                                                                             APPENDIX I

objective did not require that we separately assess the reliability of computer-based data.
However, based on our review of data the FDIC received and the use of other analytical
techniques, nothing came to our attention that indicated the data were not reliable. We
used unaudited data provided primarily by the FRB and FDIC to compile charts and
tables for this report.

Government Performance and Results Act

We reviewed DSC’s performance measures under the Government Performance and
Results Act, Public Law 103-62. We reviewed the FDIC’s 2007 Annual Performance
Plan and the FDIC’s Strategic Plan for 2005-2010. Neither plan includes goals,
objectives, and/or indicators specifically related to the subject of our audit, and no
specific performance measures exist to gauge whether the SNC Program is meeting its
goals and objectives. DSC officials told us that the banking agencies meet every October
to discuss the activities of the previous year, any complaints received from SNC
participants and bankers, and recommendations for the next examination.

Compliance With Laws and Regulations and Fraud or Illegal Acts

There are no specific FDIC laws or regulations in place that relate to the SNC Program.
Additionally, our audit program included steps for providing reasonable assurance of
detecting fraud or illegal acts, and none came to our attention.




                                             11
                       APPENDIX II


CORPORATION COMMENTS




         12
